U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Vicente Corona v. United States of America
S.Ct. No. 21-5671
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 2,
2021, and placed on the docket on September 14, 2021. The government’s response is due on
October 14, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 15, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5671
CORONA, VICENTE
USA

MATTHEW MCGAVOCK ROBINSON
ROBINSON & BRANDT, PSC
629 MAIN STREET
SUITE B
COVINGTON, KY 41011
859-581-7777
ASSISTANT@ROBINSONBRANDT.COM

